          OFFICE OF INSPECTOR GENERAL 




                                   Catalyst for Improving the Environment


Public Liaison Report



        Complete Assessment Needed to
        Ensure Rural Texas Community
        Has Safe Drinking Water

        Report No. 2007-P-00034

        September 11, 2007
Report Contributors:               Johnny D. Ross
                                   Larry Dare




Abbreviations

EPA            U.S. Environmental Protection Agency
MCL            Maximum contaminant level
MTBE           Methyl tertiary butyl ether
OIG            Office of Inspector General
TCEQ           Texas Commission on Environmental Quality




Cover photo:     Contaminated soil around the Mitchell Facility saltwater disposal tank farm
                 (photo taken in April 2004 by Texas Commission on Environmental Quality).
                       U.S. Environmental Protection Agency                                              2007-P-00034

                                                                                                    September 11, 2007 

                       Office of Inspector General


                       At a Glance
                                                                             Catalyst for Improving the Environment

Why We Did This Review             Complete Assessment Needed to Ensure
We conducted this review in        Rural Texas Community Has Safe Drinking Water
response to a hotline complaint
alleging that a small               What We Found
community’s only source of
drinking water had been            A Panola County resident first alleged in 1996 that drinking water for residents in
contaminated by adjacent           a small community in the county was contaminated. However, State officials did
saltwater disposal operations.
                                   not confirm the problem until 2003, when they told the residents to not use their
The complaint also alleged that
Federal and State officials had    water for domestic purposes. In September 2005, EPA began providing, and
not provided assistance            continues to provide, bottled water to the affected residents. EPA and the State
obtaining safe drinking water.     have taken additional steps to assess the source, severity, and extent of
                                   contamination.
Background
                                   In March 2005 the State requested that Basic Energy Services, the site operator,
In 1996, residents in a small      assess groundwater, and in October 2005 the State requested that Basic Energy
community in Panola County,        Services install additional monitoring wells. In March 2006, because Basic
Texas, complained of drinking
                                   Energy Services’ performance was inadequate, the State indicated it would take
water discoloration, stained
kitchen and bath fixtures, and     enforcement action. However, we found no evidence that the State took
gastrointestinal problems after    enforcement action. Although the State has installed additional groundwater
consuming water. Most              monitoring wells in the area, the full extent and source of contamination is still not
residents had begun buying         known. Region 6 is confident that the contamination does not originate from
bottled water or obtaining         injected waste. Even so, the State has initiated additional assessment action under
water from relatives. Between      State programs.
1996 and 2003, residents said
U.S. Environmental Protection      Responding to a petition filed by Panola County residents in November 2006,
Agency (EPA) and Texas             EPA is conducting an assessment to determine if the site qualifies for cleanup
representatives took no action
                                   under EPA’s Superfund program. Further, in its June 29, 2007, response to our
to help identify a permanent
source of safe drinking water.     draft report, EPA said that it intends to use removal action funds to pay for
In 2003, Texas found the           constructing a water line that will provide the residents with access to the Panola
groundwater was contaminated       Bethany Water Supply Corporation. EPA decided to evaluate and fully assess
and advised residents to not use   the contaminated groundwater under its Superfund program, as well as to have
the water for domestic             the residents connected to the water system. In response to our suggestion that
purposes.                          more frequent communication with the community would be beneficial, in 2007,
                                   the Region acted to keep the community informed. Region 6 stated they have
For further information,           held community meetings and Superfund staff have met with the citizens
contact our Office of
Congressional and Public
                                   individually in preparation for additional site investigations. We commend the
Liaison at (202) 566-2391.         Region for these communication activities and encourage their continuance.

To view the full report,
click on the following link:
www.epa.gov/oig/reports/2007/
20070911-2007-P-00034.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL




                                       September 11, 2007

MEMORANDUM

SUBJECT:	              Complete Assessment Needed to Ensure Rural Texas Community
                       Has Safe Drinking Water
                       Report No. 2007-P-00034


FROM:	                 Eileen McMahon
                       Assistant Inspector General for Congressional and Public Liaison

TO:                    Richard Greene
                       Regional Administrator, EPA Region 6


This is our final report on the subject review conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report represents the opinion of the
OIG and the findings in this report do not necessarily represent the final EPA position. Final
determinations on matters in this report will be made by EPA managers in accordance with
established resolution procedures.

The findings in this report are not binding in any enforcement proceeding brought by EPA or the
Department of Justice under the Comprehensive Environmental Response, Compensation, and
Liability Act to recover costs incurred not inconsistent with the National Contingency Plan.

The estimated cost of this report – calculated by multiplying the project’s staff day by the
applicable daily full cost billing rates in effect at the time – is $375,251.

Action Required

In accordance with EPA Manual 2750, you are required to provide this office with a written
response within 90 days of the date of this report. We have no objection to the further release of
this report to the public. This report will be available at http://www.epa.gov/oig.

If you or your staff has any questions regarding this report, please contact me at 202-566-2391 or
mcmahon.eileen@epa.gov, or Paul McKechnie at 617-918-1471 or mckechnie.paul@epa.gov.
                Complete Assessment Needed to Ensure Rural Texas Community

                                 Has Safe Drinking Water





                                Table of Contents 


Chapters
 1	   Introduction ...........................................................................................................      1


              Purpose ..........................................................................................................    1         

              Background ....................................................................................................       1         

              Noteworthy Achievements..............................................................................                 4         

              Scope and Methodology.................................................................................                4


 2	   Complete Assessment Needed to Ensure Community Has 

      Safe Drinking Water ............................................................................................              6


              Data Collected to Date Do Not Definitively Identify
                 Source and Extent of Contamination.........................................................                        6

              A Short-Term Solution Continues; EPA Conducts an Assessment ..............                                            9

              EPA Has Begun to Assert Its Oversight Authority ..........................................                           10 

              Conclusion......................................................................................................     10         

              Region 6 Response to Draft Report and OIG Comment ................................                                   10 


  Status of Recommendations and Potential Monetary Benefits .............................                                          13




Appendices
 A    Details on Scope and Methodology.....................................................................                        14     


 B    Region 6 Response to Draft Report.....................................................................                       15     


 C    Distribution ............................................................................................................    18     

                                Chapter 1
                                 Introduction

Purpose
          We conducted this review in response to a hotline complaint that alleged a small
          residential community’s only source of drinking water had been contaminated by
          adjacent saltwater waste disposal well operations. The complainant also alleged
          that the U.S. Environmental Protection Agency (EPA) and the State of Texas had
          not provided assistance to obtain safe drinking water. Our specific objectives
          were to answer the following questions:

             •	 Are the existing testing and sampling sufficient to provide an accurate
                assessment of contaminants in the soil and groundwater, the actual levels
                of contamination, and the potential effects on human health and the
                environment?

             •	 What are EPA’s and the State’s short- and long-term plans for providing
                safe drinking water to Panola County residents, and are there plans for
                fully assessing and, if necessary, remediating the saltwater disposal site?

             •	 Has EPA Region 6 provided enough oversight of the Texas Underground
                Injection Control program, the State’s responsiveness to the threats posed
                by known groundwater contamination, and the State’s assessment and
                remedial actions at the saltwater disposal site?

Background
          Safe Drinking Water Act and Underground Injection Control Program

          The Safe Drinking Water Act of 1974, as amended, establishes statutory
          requirements for protecting underground sources of drinking water. Part C
          establishes a Federal/State system to regulate underground injection activities.
          EPA implements the statutory requirements of the Act through regulations and
          guidance.

          The underground injection activity in Panola County was classified as a Class II
          commercial saltwater disposal facility (Class II involves oilfield operations).
          During oil production, a large amount of saltwater waste is recovered and
          transported to saltwater disposal facilities to be injected back into the earth. At
          these facilities, a small amount of oil is recovered from the saltwater waste. The




                                            1

remaining waste (brine) is disposed of by being injected into a Class II injection
well.

States can apply for primary responsibility for the Underground Injection Control
program, including enforcement authority (primacy), under Section 1422 or 1425
of the Safe Drinking Water Act; Title 42, U.S. Code, Sections 300h-1 and 300h-4,
respectively. Texas has been granted primacy for its program under section 1425,
or 300h-4 of the Code. EPA Region 6 still remains responsible for overseeing
Texas’ program. Under section 1425, a State is required to demonstrate that the
Class II portion of its Underground Injection Control program meets the
requirements at section 1421(b)(1)(A) through (D), (A) through (D) of section
300h(b)(1) of the Code, and represents an effective program to prevent
underground injection operations that could endanger drinking water sources.
EPA Region 6’s Source Water Protection Branch provides oversight of the Texas
Underground Injection Control program. The Region 6 Superfund Division’s
Emergency Response unit helps States respond to, assess, and remediate soil and
groundwater contamination at hazardous sites.

Panola County Complaint

The complaint concerned a small community, consisting of seven families and a
church, in the rural town of De Berry, Panola County, Texas. Residents stated
that they first told Texas officials in 1996 that their drinking water was
contaminated. They also stated that they discussed drinking water concerns in
1996 with an EPA Region 6 employee, but the Region had no record of that
employee nor could we locate that employee. They complained of water
discoloration, stained kitchen and bath fixtures, and gastrointestinal problems.
Most residents elected not to use the water and began obtaining water from other
sources. Some bought bottled water from a discount chain store approximately
23 miles away. Others, using personal containers such as milk jugs, obtained
water from relatives in adjacent areas.

The Texas Commission on Environmental Quality (TCEQ) and the Railroad
Commission of Texas were aware of the Panola County residents’ concerns.
TCEQ is responsible for addressing groundwater contamination from refined
petroleum products and organic matter. The Railroad Commission of Texas is the
State’s regulatory agency for oil and gas production, as well as underground
injection activities. Sampling and testing conducted in 2002 by Basic Energy
Services, the site operator, showed the presence of some contaminants above
maximum contaminant levels (MCLs) used by EPA and States as health
protection standards for drinking water. The Railroad Commission of Texas took
no action at that time because an oilfield contamination source had not been
definitively established.

After conducting additional tests in 2003, the commission advised the residents
not to use the water for domestic purposes and continued to assess water



                                 2

conditions. The 2003 testing data showed the presence of several contaminants in
the soil and groundwater. This confirmed the resident’s allegation that the
groundwater was contaminated. Contaminants included barium, chlorides, total
petroleum hydrocarbons, fecal coliform, benzene, toluene, ethyl benzene, and
xylene. Based on these test results, the
State advised residents to not use their
water for domestic purposes. Until a
full assessment is completed, the
source of these contaminants cannot
be definitively known and
contamination from the injection site
cannot be ruled out. Residents’ wells
are also susceptible to pollution from
surface runoff and bacterial
contaminants, such as animal waste.

Saltwater Injection Site

The Mitchell saltwater disposal facility
(top photo) was located approximately
1/8-mile northeast of the affected
community. It began operations in
1987 as a commercial saltwater
disposal facility. The disposal site
consisted of a tank farm with eight
large storage and processing tanks, a
truck loading and unloading rack, a
truck washout pit, a fresh-water well
with storage tank and pump house, and
an injection well (Mitchell #2). This
injection well (center photo) had a
permit to inject waste saltwater into
the earth at an interval between 1,080
and 1,110 feet. The well’s permit also
established the base of the                 Top: Tank Farm at Waste Disposal Site –
groundwater to be protected at              Mitchell Facility. Center: Mitchell #2 Injection
250 feet. The Mitchell #2 well ceased       Well. Bottom: AF Hall Injection Well
                                            (photos courtesy TCEQ)
operations sometime between October
1999 and February 2000.

After the Mitchell #2 well closed, Basic Energy Services continued to use the
Mitchell facility (tank farm, washout pit, etc.) for all disposal operations except
the actual injection of saltwater. After being processed at the Mitchell facility, the
saltwater was pumped approximately 1/4-mile offsite to the AF Hall injection
well (bottom photo). The AF Hall well was a stand-alone well permitted to inject
waste saltwater into the earth between 3,474 and 3,578 feet. As a result of an



                                  3

         administrative permit violation, the saltwater disposal operation – which included
         the Mitchell Facility, Mitchell #2 injection well, and AF Hall injection well – was
         shut down in November 2004. At that time, Basic Energy Services started
         cleanup activities at both wells.

         When we visited the site in May 2005, all equipment had been removed. The
         wells had been closed and plugged. The contaminated topsoil had been removed
         and transported to another saltwater disposal site. Basic Energy Services had
         spread new soil and gravel over the site and installed three groundwater
         monitoring wells.

Noteworthy Achievements
         EPA and the State of Texas have made progress toward fully assessing the
         severity, extent, and source of contaminants affecting the Panola County
         community and keeping residents informed. For example, the State has drilled
         additional monitoring wells to further assess the extent of contamination at and
         around the underground injection site. Since September 2005, EPA Region 6 has
         provided, and continues to
         provide, residents with bottled
         drinking water. In addition, the
         Region is conducting an
         assessment under its Superfund
         authority to determine if the site
         qualifies for federally funded
         remediation. Continued joint
         efforts by the State and EPA are
         a positive sign that, working
         together, they will be able to
         conclusively determine the
         source of harmful pollutants and
         help the affected residents           TCEQ staff taking samples from sludge and standing
                                               liquid during an inspection (photo courtesy TCEQ)
         establish a permanent source of
         safe drinking water.

Scope and Methodology
         We conducted our review between May 2005 and July 2007. We visited the
         Panola County community and Federal, State, and local agencies to conduct
         interviews, obtain official records, and review files and electronic databases.
         We focused on allegations in the complaint received from the Panola County
         residents. We found no prior reviews pertinent to the complaint. We conducted
         this review in accordance with generally accepted government auditing standards,
         issued by the Comptroller General of the United States. Because our review was




                                            4

of a specific complaint, we did not evaluate overall management controls for EPA
programs. Further details on our scope and methodology are in Appendix A.

We did not pursue other issues that we became aware of during the course of our
review. These included community residents’ legal action against the potential
responsible party and an environmental justice complaint the community filed
with EPA. The Office of Inspector General (OIG) does not normally comment on
issues brought before the legal system or other complaints that have not yet been
resolved by the Agency.




                                5

                                 Chapter 2
         Complete Assessment Needed to Ensure
           Community Has Safe Drinking Water

           Since 1996, when a Panola County resident first complained to the State of Texas
           about drinking water contamination, EPA and Texas representatives have not
           fully characterized the extent of contamination or cleaned up the contamination.
           According to EPA representatives, they did not become aware of the resident’s
           complaint until 2002. In 2003, the State recognized the presence of harmful
           contaminants in the residents’ drinking water supply. However, despite
           considerable effort by the State and EPA, they still have not identified the source
           or extent of the contamination or cleaned up the contamination. We received the
           complaint in 2004 and began our review in May 2005. In September 2005,
           Region 6 began providing bottled water to the residents. Since 2005, State and
           EPA representatives have also increased their efforts to fully assess the source,
           severity, and extent of contaminants. Responding to a petition filed by a Panola
           County resident in November 2006, EPA is conducting an assessment to
           determine if the site qualifies for cleanup under EPA’s Superfund program. In its
           June 29, 2007, response to our draft report, Region 6 said it intends to use
           removal action funds to pay for constructing a water line that will provide the
           residents with access to the Panola Bethany Water Supply Corporation. To date,
           however, the residents do not have a permanent source of safe drinking water and
           the contamination has not been fully assessed or remediated.

Data Collected to Date Do Not Definitively Identify
Source and Extent of Contamination
           None of the analyses conducted as of February 2007 has definitively determined
           the source or extent of contamination in the Panola County community. The
           Railroad Commission of Texas, TCEQ, Basic Energy Services, and complainant
           have all conducted water quality analysis at the Panola County site. Region 6
           personnel told us they believe evidence shows the contamination did not originate
           from the injection well. The Regional Administrator further stated that recent
           sampling data confirms that groundwater contamination did not result from
           Underground Injection Control activities. Although we have not confirmed the
           Regional Administrator’s assertion, we agree that recent steps to provide a
           permanent source of safe drinking water and continued monitoring will
           effectively protect the health of Panola County residents.




                                            6

Test Results Identify Contaminants

Testing data, compiled from water samples taken between 2002 and 2005,
identified some contaminants above MCLs in the groundwater at and around the
Panola County injection site. From October 2002 until August 2005, at least six
sampling events have been conducted by the Railroad Commission of Texas,
TCEQ, Basic Energy Services, and the complainant. Data have shown various
contaminants in the groundwater aquifer 35 feet below the surface, fresh water
springs, and monitoring wells that exceed primary and/or secondary MCLs.
Exceeding primary MCLs presents a health risk to residents. Secondary MCLs
are established only as guidelines to assist public water systems in managing their
drinking water for aesthetic considerations and are not enforced by EPA. Neither
the State nor EPA has conclusively determined the source of the contamination.
Samples taken in October 2003 showed high levels of chlorides, arsenic, barium,
and benzene. Test data also found fecal coliform and MTBE (methyl tertiary
butyl ether), which do not have MCLs but pose health concerns. Based on these
test results, the State advised the community to not use the water for domestic
purposes.

The Region stated that, in 2005, TCEQ detected lead and dichloromethane – both
designated as hazardous substances under Federal Superfund laws. At the State’s
request, EPA provided bottled drinking water to the affected residents under its
Superfund authority. Although EPA officials told us that they believe the
dichloromethane detection was due to a laboratory error, they have continued to
provide bottled water. In response to a petition filed by Panola County residents
in November 2006, EPA is conducting an assessment to determine if the site
qualifies for cleanup under EPA’s Superfund program.

Site Assessment/Remediation Efforts Not Yet Complete

Although groundwater testing showed
some contamination in 2002, the State
did not issue an official notification until
2003 that the groundwater was
contaminated and should not be used for
domestic purposes. Basic Energy
Services began investigative and
remedial activities immediately after the
saltwater disposal facility closed in
2004. After more than 3 years, the site
investigation has not conclusively
determined the source of the
contamination. However, Region 6 is
confident that, based on current               Resident’s backyard well July 2005; water surface
sampling data, the contamination does          has oily sheen (EPA OIG photo)

not originate from injected waste. The



                                   7

full extent of the contamination, its lateral limits, its depth, and its migration
patterns or movement along the groundwater plume is not known.

The three monitoring wells installed by Basic Energy Services were not sufficient
to characterize the extent and source of contamination. One of the wells was not
properly sited, and collectively the three wells did not provide conclusive data to
fully characterize the pollution at the site. One well was at the northeast portion
of the site up-gradient to the general flow of the shallow groundwater. Any
contaminated groundwater would flow away from that well and would likely not
be detected. A second well was at the southwest site boundary near the
residential community. A third well was further south of the second well along
the southwest boundary and also nearer to the residential community. All three
wells were located on the disposal site property.

Between July 2005 and November 2005, the State installed five additional
monitoring wells at the Mitchell site that will help better characterize the site.
The State should continually assess the adequacy of data produced from these
additional monitoring wells and ensure information received from them is
adequate to categorize the site contaminants.




Northeast corner of Mitchell Facility after    Monitoring Well #1 (right bottom) with resident
closure (EPA OIG photo)                        home in background (EPA OIG photo)



State and EPA Determined Enforcement Action Was Not Appropriate

Since the site’s closure in 2004, Basic Energy Services has not fully complied
with State requests. The State has, on several occasions, directed it to install
additional monitoring wells, conduct additional sampling and testing of the deeper
groundwater, and provide a plan for the full remediation of the site. However,
Basic Energy Services has not done so.

For example, in March 2005, the State requested Basic Energy Services to assess
the contamination at the Mitchell site, to include testing the deeper groundwater
(about 180 feet) via the site’s previously operated freshwater well. Basic Energy


                                          8

         Services informed the State that it did not believe the contamination was its
         responsibility, and since the freshwater well had been plugged, deeper
         groundwater testing could not be conducted. In October 2005, the State directed
         Basic Energy Services to install two additional monitoring wells to delineate
         elevated barium and chlorides. Again, Basic Energy Services responded that it
         did not believe the barium and chlorides were related to its saltwater disposal
         operation and asked the State to reconsider its request for additional monitoring
         wells. In March 2006, the State indicated that Basic Energy Services’
         performance was inadequate and it would take enforcement action. However, we
         found no evidence that the State had taken enforcement action. The State is now
         assessing and remediating the site under its State-managed Oilfield Cleanup and
         Site Remediation Program.

         EPA has also determined that it will not take enforcement action against Basic
         Energy Services. The Safe Drinking Water Act (Title 42, U.S. Code, Section
         300h-2) provides enforcement authority for the Underground Injection Control
         program. EPA has broad discretion about using its authority to take enforcement
         actions. EPA told us there is not sufficient evidence that subsurface injection
         contributed to the groundwater contamination. Therefore, EPA indicated no
         enforcement action can be pursued under the Safe Drinking Water Act. Region 6
         attorneys stated that the Region had not invoked its authority because (1) the
         groundwater data do not consistently show violation of a drinking water standard,
         (2) data do not exist to prove that contamination originated from a specific known
         source, and (3) there is no feasible respondent (responsible party) to whom an
         enforcement order could be sent.

A Short-Term Solution Continues; EPA Conducts an Assessment

         EPA began providing bottled water for Panola County residents in September
         2005. In response to a request by TCEQ, EPA Region 6 established a contract
         with a drinking water distributor to provide bottled drinking water and dispensers
         to the affected residents. The Region indicated that bottled water would be
         provided to the affected residents until a permanent source of safe drinking water
         is obtained. The EPA On-Scene Coordinator reported that there is the potential
         that the contamination will spread to other families in the area. Therefore, the
         Agency would monitor the site for other residents with contaminated wells. The
         Region’s efforts are the first to provide any means of clean water for the Panola
         County residents since this situation began in 1996.

         EPA Region 6 has taken further action to assess the contamination. According to
         a Panola County resident, the Region had initiated action to assess the site under
         EPA’s Superfund program. In March 2007, residents told us that EPA had
         conducted what appeared to them to be a thorough investigation.




                                          9

EPA Has Begun to Assert Its Oversight Authority

          Since December 2002, EPA has been working with the residents of Panola
          County. Prior to December 2002, EPA did not have significant contact with the
          Panola County residents. According to the Region 6 Regional Administrator, the
          Region did not initially become involved in the Panola County issue because it
          had no reason to believe the underground injection operation was responsible for
          residential well contamination.

          Since contamination was confirmed at the site in 2003, EPA has become more
          involved. During 2003 and 2004, Region 6 staff visited Texas State offices to
          review files, analyze lab results, and discuss ongoing efforts with State officials.
          The Regional Administrator noted that since 2005 Region 6 staff made multiple
          field trips to the site, conducted citizen interviews, reviewed additional site
          records, and analyzed site data. Region 6 staff added that because the
          Underground Injection Control program is delegated to Texas, it becomes
          involved in program issues only when necessary. However, although it has been
          3 years since official notification that the community’s groundwater was
          contaminated, the affected residents are still without a permanent source of safe
          drinking water.

Conclusion
          EPA and the State of Texas have agreed to provide a permanent source of safe
          drinking water for the affected community. Specifically, in its June 29, 2007,
          response to our draft report, Region 6 said it intends to use removal action funds
          to pay for constructing a water line that will provide the residents with access to
          the Panola Bethany Water Supply Corporation. Further, the State and EPA are
          continuing to assess the source, extent, and severity of contamination. Region 6’s
          increased involvement since December 2002 is a positive step in identifying an
          affordable, permanent source of safe drinking water. Because of these positive
          actions, we are not making recommendations. The Region should continue the
          level of recent communication with the community until the project is completed.

Region 6 Response to Draft Report and OIG Comment

          EPA is planning to take appropriate action to correct the problems noted in the
          affected Panola County community. Specifically, Region 6 indicated it intends to
          use removal action funds to pay for connecting the affected community to a water
          system. Region 6’s full response to our draft report is in Appendix B. Where we
          agreed with the Region’s position, we made appropriate changes to the report.
          Below, we provide information on issues for which we maintain our position and
          did not change the report.




                                           10 

Region 6 Response

1. The Region stated that the report should state that “No groundwater
contamination has occurred from injected waste.” It states that the draft report
inaccurately suggests that injected waste from the Mitchell #2 well may have
contaminated groundwater. The reply goes on to say both the Railroad
Commission of Texas and EPA’s Underground Injection Control Oversight
Program years ago determined that the Mitchell #2 injection well or AF Hall well
were not the source of ground water contamination.

       OIG Comment

       While OIG cannot definitively determine where the contamination
       originated, we do agree with the Region that it is unlikely contamination
       originated from injected waste.

Region 6 Response

2. The Region took issue with the statement, "Region 6 personnel told us they
believe evidence suggests the contamination does not originate from the injection
site.”

       OIG Comment

       We changed the statement to read “Region 6 personnel told us they
       believe evidence shows the contamination does not originate from the
       injection well.” In fact, the Region concluded that contamination came
       from surface spills at the site.

Region 6 Response

3. The Region said that it believes the April 3, 2007, preliminary assessment
report falsely concludes that contamination came from the injection well.

       OIG Comment

       OIG has not received a copy of, nor have we evaluated the conclusions
       reached in, the April 3, 2007, preliminary assessment report. Because we
       have not reviewed the report we are unable to evaluate the Region’s
       position.

Region 6 Response

4. The Region recognizes the difficulty in keeping various roles and
responsibilities of its divisions and programs clear, and suggests this may have led
us to incorrect conclusions about the Region’s oversight role. The Region also



                                 11 

takes issues with our characterization of its Underground Injection Control
program. It added that, in fact, surface spills are not under the jurisdiction of the
Underground Injection Control program.

       OIG Comment

       The OIG understands the Region’s organizational structure and each
       organization’s respective responsibilities. We believe that a more
       coordinated regional response may have led the Region to provide
       assistance to Panola County residents sooner than it did. We also believe
       it would be beneficial for Region 6's various divisions and programs to
       reassess their relationships with each other to better and more timely
       identify when issues such as this should be referred to other divisions or
       programs that could effectively deal with the problem.

Region 6 Response

5. The Region recommended that the OIG add a “current status” to the draft
report highlighting the Region’s most recent accomplishments.

       OIG Comment

       We have added throughout the report comments describing the current
       situation and actions taken by Region 6. Preliminarily, Region 6 has
       determined that it will use removal action funds to provide
       uncontaminated water to the community by constructing a waterline from
       the Panola Bethany Water Supply Corporation to residents. Until
       completion of this project, Region 6 will continue to supply bottled water.

       Region 6 also indicated that it is now in regular communication with
       community residents. Contacts include frequent phone calls, emails, and
       two community meetings since December 2006. Superfund
       representatives have met individually with community residents in
       preparing for the Preliminary Assessment and Site Investigation and to
       explain test results.




                                  12 

                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                   POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                  BENEFITS (in $000s)

                                                                                                       Planned
    Rec.    Page                                                                                      Completion   Claimed    Agreed To
    No.      No.                         Subject                       Status1      Action Official      Date      Amount      Amount

                                  No recommendations




1    O = recommendation is open with agreed-to corrective actions pending;
     C = recommendation is closed with all agreed-to actions completed;
     U = recommendation is undecided with resolution efforts in progress




                                                                             13 

                                                                                      Appendix A

                  Details on Scope and Methodology

Our review focused on allegations raised by the complainant. We conducted preliminary
research to validate the allegations in the complaint, and used the preliminary research results to
develop our objectives for field work.

We visited the Panola County community in De Berry, Texas (to include the saltwater disposal
well sites) and met with the residents of the community, including the complainant. We
interviewed State headquarters and field office representatives at the Railroad Commission of
Texas and TCEQ, including staff responsible for underground injection well operations and
environmental protection. We interviewed EPA Region 6 staff members in the Source Water
Protection Branch and the Superfund Division’s Emergency Response unit. We also met with an
EPA Underground Injection Control specialist.

To determine EPA’s and the State’s short- and long-term plans for providing safe drinking water
to Panola County residents, we interviewed EPA and State staff members and sought to obtain
documentation related to planning.

To determine whether existing testing and sampling results were sufficient, we analyzed a
compilation of all testing data from six testing episodes over a 3-year period. We used the most
recent testing and sampling results (as of August 2005) as the basis for determining the presence
and level of contaminants because these data are being accepted and used as reliable data by
EPA Region 6 and State staff members.

To determine whether EPA Region 6 provided adequate oversight of the Texas efforts at the site,
we reviewed the specific requirements pertinent to EPA in the Safe Drinking Water Act. We
interviewed EPA Region 6 and State representatives regarding EPA actions. Further, we
reviewed EPA Region 6 Underground Injection Control program manager files and the Railroad
Commission of Texas database for any documentation about EPA involvement with the site.




                                                14 

                                                                                    Appendix B
                 Region 6 Response to Draft Report

                                          June 29, 2007

MEMORANDUM

SUBJECT:       Comments on Second Draft Public Liaison Report “A Complete Assessment
               Needed to Ensure Rural Texas Community Has Safe Drinking Water”
               Assignment No. 2005-1161

FROM:          Richard E. Greene
               Regional Administrator (6RA)

TO:            Paul D. McKechnie
               Office of Inspector General (OIG)

        This memo provides our comments on the second draft report dated June 8, 2007.
Generally, this draft is much improved over the first draft of September 26, 2006. We are
particularly pleased that the first draft’s recommendations, which were based on questionable
interpretations of the Safe Drinking Water Act, are not included in the second draft. We
commend the thoughtful professionalism your legal staff exhibited in its discussions with
Agency attorneys from the Regional and General Counsel Offices. The second draft still
contains a few factual and technical errors, however:

        No ground water contamination has occurred from injected waste. The last
paragraph on page seven and the first two paragraphs on page eight of the second draft report
inaccurately suggest that waste injected in RB Mitchell #2 may have contaminated ground water.
The second draft report then concludes that “[t]he State and EPA agree that further assessment
[of potential contamination by injected waste] is necessary.”

        In fact, both the Railroad Commission of Texas (RRCT) and EPA’s Underground
Injection Control (UIC) oversight program years ago determined that waste injection via RB
Mitchell #2 or AF Hall #1B was not the source of ground water contamination, but have
continued to review new data as it becomes available. The Region’s December 1, 2006 response
(Response) to the first draft report addressed that issue on pages 9 - 11, explaining in detail why
the Region concludes no such contamination has occurred. See Also Exhibit 1 to the Response,
pp. 1, 13, 25 - 25, 29 - 30, 33, 34 - 35, 38 - 40, 43 - 45.1 Sampling data obtain since Region 6


1
       On page six, the second draft report inaccurately states, “Region 6 personnel told us they
believe evidence suggests the contamination does not originate from the injection.” In fact,
the Region’s first response instead indicated that surface spills at the site had contaminated
ground water, but that such surface spills were not within UIC program oversight authority or
responsibility. See, e.g., Response, pp. 3, 14.


                                                15 

                                                2



submitted its Response to the first draft further confirms that injected waste has not contaminated
the ground water at issue. We suggest references to potential contamination by injected waste be
deleted from the final report.

        The preliminary assessment was released on April 3, 2007. That report, which was
prepared by an EPA contractor, preliminarily concluded that the site’s ground water
contamination stemmed from underground injection. The assessment did not receive a thorough
EPA technical review before it was distributed. A review has now been conducted and shows
that the contractor apparently failed to consider significant information and analysis
independently generated by EPA Region 6 and RRCT. Although it noted other potential sources
of contamination in the area, e.g., pipeline brine spills, the contractor apparently limited its
consideration to the former R.B. Mitchell #2 Facility. Observing that the former surface site of
the facility well had been remediated, the Contractor concluded that injected waste was the
source of continuing ground water contamination without further analysis. Region 6 has
informed Basic Energy Services of this error and plans to issue an accurate site investigation
report in the near future.

        Region 6 is not now asserting “oversight authority.” The last paragraph on page ten of
the second draft report suggests Region 6 has tardily asserted its “oversight authority,”
essentially implying that the UIC oversight program failed to provide bottled water or conduct a
preliminary site assessment until 2005 and 2006, respectively. We realize that keeping the
respective authority and responsibilities of the three separate organizational units (Superfund
Division, Water Quality Division, and Enforcement Division) that have been involved with this
situation since early 2003 is difficult. Providing bottled water to the Panola residents and
preparing a preliminary site assessment are not, however, UIC or any other program “oversight”
actions. They are instead direct and independent actions of the Superfund program, which has
no UIC program oversight responsibilities whatsoever over Texas state agencies.

          The Response described the UIC program’s oversight responsibilities on pp. 4-5 and the
manner in which it carried them out on pp. 5-8, 15-16. See also Exhibit 1, pp. 5, 9, 11-13, 22-23,
31, 47-49, 53-54. As pointed out in the Response, the UIC oversight program quickly reacted to
its first notice (in December 20022) of alleged Panola County ground water contamination by
injected waste. Even though there was, and is, persuasive evidence that no such contamination
by injected waste occurred, the UIC oversight program continued to monitor the situation.



2
       The second draft report continues to reference a hearsay report that a 1996 complaint
was submitted to xxxxxxxxxxxxxx, an alleged EPA employee. Region 6 continues to believe
Mr./Ms. Xxx xxxxxxxxxxx was not an EPA employee because its personnel records contain
no mention of such a person and staff working in the Region in 1996 have no recollection of
meeting him or her. See Response, Exhibit I, pp. 3.



                                                16
                                               3


         The Second Draft Report should be updated to reflect the currently status of
Superfund program efforts. The Region’s submission of the December 1, 2006, Response was
its last substantive communication with Office of Inspector General technical staff. The
Superfund program has preliminarily determined it appropriate to provide uncontaminated
drinking water to the community and intends to use removal action funds to construct a waterline
from the Panola Bethany Water Supply Corporation to transport such water to the community.
Region 6 understands the community hs received funds from a settlement with Basic Energy
Services and a grant that may be used to defray the costs of constructing hookups from the line
EPA will construct to individual residences and structures. Until completion of this project, the
Region will continue to provide bottled water to the community. The Superfund program is now
preparing a comprehensive site investigation document that will provide a technical basis for
those actions and plans to release that document in several weeks.

        The IG report indicated (page 11, “Conclusion”) that “More frequent communication
between EPA and the community may also be beneficial.” Region 6 is in regular communication
with the community via our program office contacts, as well as via the Office of Environmental
Justice and Tribal Affairs. Contacts include frequent phone calls (several calls and or emails
each week) and two community meetings since December 2006. In addition, Superfund program
has met with the community members individually in preparation for the Preliminary
Assessment and Site Investigation (PA/SI), to explain test results.




                                               17 

                                                                                Appendix C

                                    Distribution

Office of the Administrator
Regional Administrator, Region 6
Assistant Administrator, Office of Solid Waste and Emergency Response
Assistant Administrator, Office of Water
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Audit Followup Coordinator, Office of Solid Waste and Emergency Response
Audit Followup Coordinator, Office of Water
Chief, Community Involvement and Outreach Branch, Office of Solid Waste and
      Emergency Response
Director, Office of Regional Operations
Regional Audit Followup Coordinator, Region 6
Regional Public Affairs Office, Region 6
Assistant Regional Administrator, Water Quality Protection Division, Region 6
Assistant Regional Administrator, Superfund Division, Region 6
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Acting Inspector General




                                             18 

